Appendix A

L3s~6t~~ eta#es v. ~3i~~, 85~ F~d.Appx. 3 36 (2fl21)

854 Fed.Appx. 386
This case was not selected for
publication in West's Federal Reporter.
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY
1, 200, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE
32.i AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A
DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX
OR AN ELECTRONIC DATABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING
A SUMMARY ORDER MUST SERVE A COPY OF IT
ON ANY PARTY NOT REPRESENTED BY COUNSEL.
United States Court of Appeals, Second Circuit.

UNITED STATES of America, Appellee,
V.

James DIAZ, aka Chunky, Andre Felton,
aka Dre, Ezekiel Burley, aka Ezekiel
McCall, aka Iel:e, alca Ziggy, Uriah Brown,
aka Scooter, Bradford Cannon, aka
Brad, Willie Reeves, aka Willie Reed,
aka Willow, Harold Fields, alca Howie,
Robert Brent, aka Ready, llaslia~in
McDonald, aka Dayday, Matthew Torres,
alca Mac Mittens, alca Green Eyes, Tyrone
Turner, alca Slcrap, Kendrick McCray,
alca Kenny, Ginger Diaz, Jose Sandoval,
aka Shorty, Derrick Moore, Defendants,
James Felton, Defendant-Appellant.
19-3352
May o5, 2021
S~~nopsis
Background: Defendant was convicted in the United States
District Court for fl1e Southern District of New York, ~Vi I Bain
FL 1'aulcy, Senior District Judge, of murder in aid of
racketeering, murder while engaged in narcotics conspiracy,

firearm offenses, conspiracy to distribute narcotics, and
related crimes, and he appealed.

[Holding:] The Court of Appeals held that district court did
not violate defendant's right to trial by impartial jury when
it declined to ask his proffered voir dire question concerning
implicit racial bias.

Affirmed.

West ~-[eadnotes (1)

[1 J

,Jur}~ ~: - SLul~monin~~ and impaneling; voir
dire
District court did not violate defendant's Sixth
Amendment right to trial by impartial jury
when it declined to ask his proffered voir dire
question concerning implicit racial bias; district
court did question potential jurors on issue of
racial prejudice and warned them that it would
be improper to consider their personal feelings
about defendant's race. U.S. C`onst. Ami>nd. (.
1 C;<ises that cite this headnote

*387 Appeal fi~om a jlidgincnt of'the United States Dish~ict
Court for the Southern District of New York (F'aiil~y, J.).
UPON DUE CONSIDERAT[ON, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of tl~e district court is AFFIRMED.
Attorneys and Law Firms
FOR APPELLEE: Fr~~nk J. F3~llsamello, Assistant United
States Attorney (Arden Chow, Matthew J.C. Hellman, and
Karl Metzner, Assistant United States Attorneys, on the brie,
for Audrey Stra~~ss, United States Attorney for the Southern
District of New York, New York, NY.
FOR DEFENDANT-APPELLANT: Dcvin McL,~urhlin,
(Lloyd Epstein, Epstein &Weil LLC, New York, NY, on the
briefj, Langrock Sperry &Wool, LLP, Middlebury, VT.

~J~i~~ci St~~es v. Diaz, 854 ~ed.A~px. 386 (2023)

PRESENT: DI I~NIS JACt)f3S, JO~E:;PII F. I31ANC:`O,
MfCNAt:;L H. PnRI<, Circuit Judges.

SUMMARY ORDER
Defendant-Appellant James Felton appeals from a judgment
of conviction, entered on October 8, 2019, by the United
States District Court for the Southern District of New York
(Pauley, J.). Following aseven-day jury trial, Felton was
convicted of murder in aid of racketeet•ing and murder while
engaged in a narcotics conspiracy, as well as firearm offenses,
conspiracy to distribute narcotics, and related crimes arising
from his involvement in drug trafficking in the Bronx and the
murders of Marvin Harris and Jose Morales. The district court
sentenced him principally to life plus seventy-f7ve years'
imprisonment. We asslin~e the parties' familiarity with the
underlying facts and procedural history of this case, to which
we refer only as necessary to explain our decision to affirm.
Felton's sole contention on appeal is that the district court
violated his ribhts wider die U.S. Constitution when, during
voir cline, it chose not to ask prospective jurors about implicit,
or unconscious, racial bias. ~ *388 Specifically, Felton
asserts that the district court violated his Sixth Amendment
right to a trial by an impartial jury when it declined to ask his
proffered voir dire question concerning implicit racial bias.
We disagree.
It is we11 settled that "[v]oir dire is necessarily a matter
in which the trial court has ext~•emely broad discretion."
C,'riitc~d S~t~rte,t~ r. L,cn-v<rs; 292 F'.~d 12~, 1?~ (?d C;ir. ?002).
"Accordingly, we will not reverse Linless we determine
that this discretion has been abused." /d.z With respect to
questions regarding race, in Ro.ru(e,s-I opez ~. Urriterl ,S~atE~~s
the Supreme Court made clear that "there is no per se
constitutional rule ... requiring inquiry as to racial prejudice
[during voir dire]." 4~ 1 U.S. I S2, 190, 1U 1 S.Ct. 16?9, 68
L.Gd.2d ?? (19 1) (plurality opinion). Instead, "[o]nly when
there are more substantial indieltions of the likelihood of
racial or ethnic prejudice affecting the jurars in a particular
case does the trial court's denial of a defendant's request
to examine tl~e jurors' ability to deal impartially with this
subject amount to an tmconstitutional abuse of discretion."
Icl. Similarly, in IZi,stcrir~io ~>. Ross the Supreme Court held
drat, even though the case involved allegations of inten•acial
violence, the failure to ask questions about racial prejudice in
voir cline did not violate the U.S. Constitution because "[t]he

__
cii•cumstancEs ... did not suggest a significant likelihood
that racial prejudice might infect [the defendant's] trial."
424 U.S. 589, >98, 9Ei S.Cf. I017, 47 L.E(1.2c1 2~8 ((976).
In such circumstances, the Constitution is "satisfied by [a
court's more generalized but thorough inquiry into [juror]
impartiality." Id.; see also H~~it~z v. South C'nrolinca, 409 U.S.
524, 526--27 & u.2. 9; S.Cf. 848, 35 L.Ed2d 46 (1973)
(noting, in a case where a question regarding race was
required, that the constitutional requirement could be satisfied
by a "brief, general question[,]" such as "Would you fairly
try this case on the basis of the evidence and disregarding the
defendant's race?").
Apart from the requirements of the Sixth Amendment,
the Supreme Court leas emphasized that, pursuant to its
"supervisory authority over the federal courts," district courts
generally should question prospective jurors about racial
prejudice in any instance where a criminal defendant requests
such questioning. IZoscrles-1o~~c~, 451 LJ.S. at 19(}-91, 1(lt
S.Ct. l Ei29; see also Ilrstc~rr~rn, '~24 U.S. at 597 n.9, 9Ci
S.Ct. 1O17 ("[T]he wiser course generally is to propound
appropriate questions designed to identify racial prejudice
if requested by the defendant."); accord Uniiecf Siures ~~.
Krles~, ~0 F. ~d 519, 5 ~~4 ('2d ~'ir-. 1 ~7y4). "Failure to honor•
[a defendant's] request [in this context], however, will be
reversible error only where the circumstances of the case
indicate that there is a reasonable possibility that racial or
ethnic prejudice might have influenced the jury." IZo,t«l~~.s~Lo~~c~. 451 U.S. at 191. 101 S.Ct~. 1(129.
Here, Felton does not argue that a question on racial prejudice
was constiriitionally rnandatedunder the circumstances of this
case based upon the holdings of Rc~.i~ules-T..opez and Risiurr~o.
Instead, Felton urges this Court to "question the continuing
validity" of these Supreme Court decisions *389 because, in
Felton's view, "[from the perspective of 2020, the Ro.s~c~lc~sloE~e~ and IZist~ii»o holdings are untenable." Appellant's Br.
at ix—x. Felton's request that we "[r]econsider," id. at 16, these
binding Supreme Court decisions is anon-starter because it
is axiomatic that "[w]e cannot overrule the Supreme Court,"
f3~ich. c. F'atcrki, 40~i F.3d 75, 8fi (2d C'ir. 2005), overrzrled on
otlzer ~>rounds by :llcDo~iulc/ a C'Irrccr~7o, 561 U.S. 742, 13U
S.Ct. 3020, 177 L.~d.2d 8~)4 (?010); accord State Oil Co. ~~.
1zl~cu~z. X22 U.S. 3, 2('), l.lY S.Ct. 275. 1 ~9 L.~cl.2d 199 (1997)
("[I]t is [the Supreme] Court's prerogative alone to ovenlile
one of its precedents.").
In any event, the district court here did question the potential
jurors on the issue of racial prejudice. First, the district court

U~rit~d Mates v. ~i~z, 8~4 ~e~i.Rppx. 386 (2fl21)

explained to prospective jurors that the purpose of voir dire
is to "select fair and impartial jurors; that is, jurors who
are tree from preconceived notions or pyej~idices that might
prevent them from returning a fair and just verdict based
solely on the evidence or the lack of evidence." App'x at 49
(emphasis added); see also id. at 52 ("Jurors are required
to make their decisions solely on the basis of the evidence
presented at trial or the lack of evidence and not oi~ the basis of
conjecture, suspicion, sympathy, or prejudice, fa~ or against,
a~zy parry." (emphasis added)). Then, as it related specifically
to Felton, the district court wai-~ied the venire that "it would be
improper for any of you to consider any personal feelings you
may have about a defendant's race, religion, national origin,
sex, or age" and immediately asked whether "any prospective
juror [would] have any difficulty putting aside any feelings,
positive or negative, about the defendant, Mr. Felton, based
on these considerations[.]" Id. at 58. Moreover, towards the
end of voif- dire, the district court again asked a question, in a
broad and open-ended manner, to the prospective jurors about
potential prejudice:
"Based on everything that we've discussed Lip to fliis point
in time, do any of you have the slightest doubt in your
mind for any reason whatsoever that you'll Ue able to
serve conscientiously, fairly and impartially in this case and
to render a true verdict without fear, Favor, sympathy or'
prejudice aild according to the law, as PIl instruct you?"
Id. at 112. Importantly, in Uiiitc>d Stcrtes~ ~~. Ti•eu~ r we
recognized that "a district court may find that warning a jury
against an improper bias maybe more effective in some cases
than inquiring about that bias." 639 F'.id 32, 47 (2d Cir.
201 1). Here, the district court did both, aild on more than onE

occasion.

_._
To the exte~lt Felton argues that the U.S. Constitution or the
Supreme Court's supervisory mandate required the district
court to also ask a specific question on implicit racial bias,
we disagree. As we have explained, "[v~oir dire is of course

an important part of trial proceedings, but federal trial judges
are not required to ask every question that counsel—even all
counsel—believes is appropriate." Latiti~cs, 292 F.3d at 125;
see also Hurry; 409 U.S. at 527, 93 S.C't. 84S ("[T]he trial
judge was not required to put the question [concerning racial
prejudice] in any particular form, or to ask any particular
number of questions on the subject, simply because requested
to do so by [defendant]."). In fact, in Lu~~~es, we noted that this
Court lead "never ... reversed a conviction for the failure to ask
a particular question on the voir dire of prospective jurors,"
and Felton has pointed to no case since where we have done
so. 292 F.3cl ~~t 12); czeeord Ti~c~creti~, 639 F'.id <tt 46. Therefore,
"[w]e do not minimize the importance to criminal defendants
of removing the possibility of racial bias on the jury," brit
rather re-emphasize *390 that "[h]ow best to do that ... is
primarily left to the broad discretion of the district court."
C,~rtited Sluic,s v'. Tui lor, 92 F.3d 131;. 13?4 (2d C'ic. 199O.
Given the circumstances of this case, the district court did not
err under any standard in deternliuing that the questions and
warnings it posed during voir dire were sutticient to explore
the issue of racial bias with prospective jurors.
We have considered all of Felton's remaining arguments and
end them to be without merit. Accordingly, we AFFIRM the
judgment of the district court.

All Citations
854 Ped.Appx. 386

Footnotes
~
As defined by Felton's trial counsel in their requested voir dire questions for the district court, "[u]nconscious biases
are stereotypes, attitudes or preferences that people may consciously reject but may be expressed without conscious
awareness, control or intention. Like conscious bias, unconscious bias, too, can affect how we evaluate information
and make decisions." App'x at 29. Of particular relevance to this case is what Felton, who is Biack, describes as the
"unconscious, associational link between Black males and crime." Appellant's Br. at viii.
2
The parties dispute whether the abuse-of-discretion or plain-error standard of review applies in this case. We need not
resolve this disagreement, however, because Felton's challenge to the district court's questioning during voir dire fails
even under the abuse-of-discretion standard.

%~21 ~~~horr~;;on EZ~ ia~~~s. Nc~ cl~ifm to ori~in~1 IJ.S.
Gov~rr~m~n% G~Io;l<s,.

